<html>
<title> - [H.A.S.C. No. 111-27] THE PROJECT ON NATIONAL SECURITY REFORM: COMMENTARY AND ALTERNATIVE VIEWS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 111-27]
 
                    THE PROJECT ON NATIONAL SECURITY

                         REFORM: COMMENTARY AND

                           ALTERNATIVE VIEWS

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 19, 2009

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     



                  U.S. GOVERNMENT PRINTING OFFICE
51-105                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          ROB WITTMAN, Virginia
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        MIKE ROGERS, Alabama
SUSAN A. DAVIS, California           TRENT FRANKS, Arizona
JIM COOPER, Tennessee                CATHY McMORRIS RODGERS, Washington
JOE SESTAK, Pennsylvania             DOUG LAMBORN, Colorado
GLENN NYE, Virginia                  DUNCAN HUNTER, California
CHELLIE PINGREE, Maine
                Lorry Fenner, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                    Sasha Rogers, Research Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, March 19, 2009, The Project on National Security 
  Reform: Commentary and Alternative Views.......................     1

Appendix:

Thursday, March 19, 2009.........................................    25
                              ----------                              

                        THURSDAY, MARCH 19, 2009
  THE PROJECT ON NATIONAL SECURITY REFORM: COMMENTARY AND ALTERNATIVE 
                                 VIEWS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1
Wittman, Hon. Rob, a Representative from Virginia, Ranking 
  Member, Oversight and Investigations Subcommittee..............     2

                               WITNESSES

Destler, Dr. I.M. (Mac), Saul I. Stern Professor of Civic 
  Engagement, Director, Program on International Security and 
  Economic Policy, School of Public Policy, University of 
  Maryland.......................................................     8
Krepinevich, Dr. Andrew F., Jr., President, Center for Strategic 
  and Budgetary Assessments......................................     4
Oleszek, Walter, Senior Specialist in American National 
  Government, Congressional Research Service.....................    11

                                APPENDIX

Prepared Statements:

    Destler, Dr. I.M. (Mac)......................................    51
    Krepinevich, Dr. Andrew F., Jr...............................    34
    Oleszek, Walter..............................................    54
    Snyder, Hon. Vic.............................................    29
    Wittman, Hon. Rob............................................    32

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Dr. Snyder...................................................    71
  THE PROJECT ON NATIONAL SECURITY REFORM: COMMENTARY AND ALTERNATIVE 
                                 VIEWS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                          Washington, DC, Thursday, March 19, 2009.
    The subcommittee met, pursuant to call, at 1:07 p.m., in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. The hearing will come to order. Good afternoon. 
Welcome to the Subcommittee on Oversight Investigations hearing 
on the Project on National Security Reform (PNSR), better known 
as the Locher Project after its executive director. This is the 
report itself. We all have come to the conclusion that because 
of the density of the paper, it is the heaviest report that we 
have ever encountered in some time. It is so heavy, it tends to 
be dangerous when you set it down.
    I wanted to hold this hearing because of this 
subcommittee's continuing interest in interagency issues in 
national strategy. As we heard Secretary Gates and others say 
over and over again, our national strategy in the wars in Iraq 
and Afghanistan require, ``whole of government approaches.'' 
However, the question remains, how exactly do we do that? Some 
people do not think we need reform of structures but simply 
better leadership. Others believe we have good people who are 
working hard but our current structures and processes, largely 
built in 1947 to win the Cold War, do not serve us well now. 
And these structures and processes certainly won't serve us 
well in the future as we face more numerous and complex 
challenges.
    An independent review on the subject was required by the 
Armed Services Committee. The two-year project we are talking 
about today was funded by both government funds, including some 
from the Department of Defense, and private funds. The full 
study is over 700 pages long and includes a history of the 
National Security Council, and about 100 case studies that seek 
to identify problem areas. More than 300 people participated in 
the study in one form or another, including retired General Jim 
Jones, our current National Security Advisor and retired 
Admiral Denny Blair, our current Director of National 
Intelligence. Their report was delivered to President Bush and 
the Congress in December.
    The Project on National Security Reform focuses on how the 
National Security Council (NSC), the departments and agencies 
and the Congress contend with national security issues. We can 
all probably acknowledge that there is a gap between the NSC 
and the departments. We could call this gap the interagency 
space where true whole of government action might best be 
achieved. However, right now there is no structure at the 
interagency level that assures integration of all the tools of 
national power.
    The authors of this report propose strengthening the 
National Security Advisor, to be called the Director for 
National Security, and the National Security Council, to be 
called the President's Security Council, to fill the gap. This 
will have certain implications for the rest of our national 
security system, including the Congress. So I hope our 
witnesses can help us sort out today some of these 
implications. In this report, the guiding coalition of national 
security professionals and thinkers have tried to make a case 
for urgent and broad reforms. They argue that all their 
recommendations should be taken as a whole. Some of these 
include creating a new Director for National Security, 
instituting a QDR-like interagency national security review, 
decentralizing management of national security issues by 
creating interagency teams and task forces, establishing a 
President's Security Council to replace the National and 
Homeland Security Councils, creating an integrated national 
security budget, developing an interagency national security 
professional core, and establishing House and Senate Committees 
on National Security and strengthening the Foreign Relations 
and Affairs Committees.
    Our panel of witnesses today, to help us sort all of these 
questions out in the next couple of hours, consists of Dr. 
Andrew Krepinevich, President of the Center for Strategic and 
Budgetary Analysis; Dr. Mac Destler, Director of the Program on 
International Security and Economic Policy at the School of 
Public Policy at the University of Maryland; and Mr. Walter 
Oleszek, Senior Specialist at the Congressional Research 
Service.
    I also want to acknowledge we have an out-of-town guest 
here today, a parliamentarian from Quebec, Claude Bachand, who 
is a member of the Canadian Parliament. And he is going to be 
with us for a half hour or so. So we welcome you. Let us give 
him--and we will now turn to Rob Wittman, our ranking member, 
for any comments he would like to make.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 29.]

STATEMENT OF HON. ROB WITTMAN, A REPRESENTATIVE FROM VIRGINIA, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Wittman. Thank you, Mr. Chairman. Thank you, members of 
the panel, for being with us today. I appreciate you taking the 
time to come before us and give us your thoughts on the issue 
that we have before us on the Project on National Security 
Reform. The subject of today's hearing is indeed a very serious 
matter. Since the dawn of the 21st century, the United States 
has faced an ever shifting, complex international environment. 
And ideally we would have an agile national security structure 
able to respond to the challenges as needed, but we do not. 
After all, the military services, via the jointness dictated by 
the Goldwater-Nichols legislation is able to task organize to 
meet almost any mission. But the greater bureaucracy of the 
executive and legislative branches of the Federal Government 
have rigid, unyielding structures and processes that sometimes 
struggle to organize coherent, effective responses to national 
and international crises. And this weakness has been widely 
recognized and studied, particularly after the intelligence 
failures of September 11, 2001.
    One outcome of that tragedy was the Intelligence Reform Act 
of 2004 which reorganized and better integrated the 
Intelligence Community. Otherwise, the executive branch and 
congressional committee structures were left intact. To be 
fair, designing the best system to reorganize the National 
Security Council and half the cabinet departments is no easy 
matter. The Project on National Security Reform has reviewed 
the interagency coordination problem in a thoughtful, logical 
manner that makes a series of recommendations for the 
organization of both the national security apparatus and the 
Congress.
    While we cannot single-handedly make these changes, we do 
have a responsibility to start the dialogue. Our witnesses were 
not part of the Project on National Security Reform effort and 
are well placed to provide an impartial view of this study. 
Gentlemen, we appreciate you being here today to do that for 
us. Now, I am grateful to have you here as distinguished 
witnesses before us to comment on the project's work and look 
forward to your testimony in shining some light on the 
applicability of that project. So we appreciate that. With 
that, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 32.]
    Dr. Snyder. Thank you, Mr. Wittman. We are also pleased to 
be joined today by another Armed Services Committee member, 
Adam Smith from the State of Washington. Adam is the chairman 
of the Terrorism and Unconventional Threats Subcommittee of the 
House Armed Services Committee. He is also on the Intel 
Committee, and for most of the last decade, has been a Member 
of the House Committee on Foreign Affairs. So he has been 
following a lot of these issues very closely. Adam, if you 
would like to make an opening statement, feel free.
    Mr. Smith. Certainly. Just a couple of quick comments. And 
I thank Chairman Snyder for allowing me to sit in this hearing. 
The report could not be more timely. I agree completely with 
both statements of the Chairman and the Ranking Member on the 
importance of interagency work. And we have certainly seen that 
in a lot of the projects that we have undergone on national 
security in the last several years. And my subcommittee is 
particularly focused on that. We do a lot of counterterrorism 
work with the special operations command and you see where 
country by country, piece by piece you need a lot of different 
sets of resources from different agencies. And there is no 
formal mechanism really for pulling those together. It has been 
done in an ad hoc basis.
    In some cases fairly effectively. Joint Special Operations 
Command (JSCO), I think, has done a very effective job of 
pulling together the counterterrorism efforts in Iraq and 
Afghanistan, working with a wide variety of different agencies. 
But that was really sort of driven by the individuals who made 
that decision and made it work. What we need is a more 
formalized structure because the problem will not just be 
peculiar to Iraq and Afghanistan. It is part of dealing with 
global development issues. It is a big part of dealing with a 
messaging issue. I say that as I see Mac Thornberry walk in the 
room. Not to do that to you, Mac, right when you walk in the 
door. He was Ranking Member on my committee for the last two 
years and also on Intel's. He has been very focused on what is 
our strategic communications strategy.
    And at the end of the day, we have got about 35 or 40 
different groups or agencies that have a piece of that. It is 
not well coordinated and well focused. Nobody is in charge. I 
could go on, but I won't because I want to hear your testimony. 
But the bottom-line is the interagency piece is going to be 
critical to our national security strategy going forward in a 
number of different areas. Thank you, Mr. Chairman, for the 
opportunity to say a couple of things.
    Dr. Snyder. Thank you, Mr. Smith. We have also been joined 
by Congressman Mac Thornberry from Texas. Through the years, 
Mac and I just cannot get enough of Andy Krepinevich. He has 
sponsored some forums that Andy would put on about 10 years 
ago. We appreciate you being here today. Mac is also a member 
of the Intel committee in addition to the Armed Services 
Committee. Gentlemen, what we will do is begin with your 
opening statements. I am going to have Dr. Fenner put the clock 
on. When you see a red light flash, you should feel free to 
drive on through it if you think you have some more things you 
need to say. But if you stay to about the five minutes, then we 
can get to the members' questions.
    Dr. Snyder. Dr. Krepinevich, we will start with you.

 STATEMENT OF DR. ANDREW F. KREPINEVICH JR., PRESIDENT, CENTER 
            FOR STRATEGIC AND BUDGETARY ASSESSMENTS

    Dr. Krepinevich. Thank you, Mr. Chairman. As you know, I 
submitted a written statement and I will summarize my remarks.
    Dr. Snyder. All written statements are a part of the 
record.
    Dr. Krepinevich. Again, let me add my compliments to the 
efforts of the project, an impressive array of individuals, a 
very comprehensive report. And as also noted, a very 
substantial report in many, many ways. What I would like to do 
is focus my five minutes on an issue that was raised by the 
Project, which is the issue of restoring the ability of the 
U.S. government to craft strategy competently, as well as to 
execute it. It has been said if you don't know where you are 
going, any road will take you there. And if you don't have a 
clear strategy to inform the path you have chosen to achieve 
your security objectives, any structure or process will do. The 
need for a good strategy, our best strategists tell us, is the 
greatest at any time since the early days of the Cold War. It 
has been said that you need strategy and strategic thinking 
most during periods of great change. And I think the Project 
certainly makes the point that we are at a period of tumultuous 
change, but also when resources are scarce.
    As one British politician famously said about a century 
ago, we are running out of money, we will have to start to 
think. And while I am a big fan of structure and a big fan of 
process, I am an even bigger fan of thinking. And that is what 
strategy is all about. Strategy is not just how do you apply 
certain means at your disposal to achieve your objectives. More 
specifically, it is about the hard work of identifying, 
developing and exploiting sources of advantage in ways that 
give you the greatest leverage, in ways that allow you to 
effectively achieve your objectives at minimal costs and 
minimal risk. And that traditionally has been very difficult 
work.
    Failure to craft strategy well leads to a waste of 
resources, as well as endangering our security and our well-
being. Now, I have identified in my testimony a number of 
barriers that I think really compromise our ability as a 
government to do strategy well. One is confusing strategy with 
the two polar aspects of it, one being the goal and one being 
the means. An example of confusing strategy with objectives is 
the Clinton Administration's national security strategy in 
2000, which said that a key element of its strategy was 
preventing conflict. Well, that is not a strategy, that is an 
objective.
    When President Bush said as they stand up, we will stand 
down, that is our strategy for Iraq. That is not a strategy. 
That is substituting one set of means, the Iraqis, for another 
set of means, the United States. That is not a strategy. So 
again, just a failure to understand what strategy is, even at 
the highest levels of government. A second is a failure to 
understand the enemy. To a certain extent your strategy is 
trying to get your rivals, your adversaries, your competitors 
and even your allies to behave in certain kinds of ways. We 
have to know what motivates them. And throughout the Cold War 
and even into the current period, a number of statements 
indicate that oftentimes we don't understand our enemy.
    Consider the fact, for example, that Lyndon Johnson after 
giving a speech at Johns Hopkins University in 1965 in April in 
which he proposed a Tennessee Valley Authority sort of project 
for the Mekong Delta, turned after the speech and said, ``Old 
Ho can't turn me down now.'' Well, he wasn't dealing with a 
politician from Tennessee. He was dealing with a communist 
revolutionary. President Kennedy's first reaction upon finding 
out that the Soviets were placing nuclear missiles in Cuba was, 
``he can't do that to me.''
    Well, again, a misunderstanding of the motives and the 
character and the objectives of the Soviet Union at the time. 
In my testimony, I lay out the debate very briefly that 
occurred in the early days of the Cold War between three of the 
wise men, the so-called wise men, George Kennan, Paul Nitze and 
Chip Bohlen over the character of the threat posed by the 
Soviet Union. That had a material effect on the kinds of 
strategy, the kinds of resources, the whole approach of 
government that we took to dealing with the Soviet threat.
    So again, the importance of understanding the enemy. And I 
think it is one thing that we can agree upon is that we really 
even now don't have a good understanding of the challenges 
posed by those who seek to do us ill. A third barrier is 
discounting the value of strategy. Perhaps we are too busy with 
the crisis du jour. Sandy Berger famously once said that he 
preferred to worry about today today and tomorrow tomorrow. 
Well, that may be a good way of taking care of today, but 
again, you need a strategy that guides you not only through the 
current period but over the long term. Another barrier is the 
failure to accept that resources are limited.
    I will give you a quick example here. This plays big in the 
Pentagon. Again, strategy seeks to balance your objectives with 
your resources. In the Pentagon, they have what are called cut 
drills. The defense program is always too ambitious for the 
defense resources. And rather than typically come up with a 
strategy for dealing with that, the services continue to boost 
their requirements, trying to create as big a gap as possible. 
Why? Because the strategy is to prevail in the cut drill. You 
want to be cut less than any other service. So the more needy 
you look, the strategy to make yourself look needy as opposed 
to the strategy to play to your advantages to cause your rival 
the greatest amount of discomfort is typically given short 
shrift.
    Finally--and obviously--there is bureaucratic hostility. 
There is the what I call--there is certainly efforts to 
frustrate strategy execution, but there is also the Ben-Hur 
approach to developing strategy. And there are a couple of 
charts from the Pentagon that I put in my testimony. It is the 
cast of thousands. It is the Quadrennial Defense Review that 
has got panels and committees and groups and focus groups. And 
that is the approach that is taken to crafting strategy. That 
is not to say that we don't need a big government. That is not 
to say that we don't need a big bureaucracy. But strategy is 
hard. It is typically done by small groups of very talented, 
strategic thinkers, whether you are looking at NSC 68, the 
Solarium Project under Eisenhower, NSC 162/2, some of the 
efforts that laid the strategic foundation that guided and 
informed everything else, typically done by small groups of 
people. So in my testimony, I offer a rather modest 
recommendation and that is to go back and take a good hard look 
at what I call the Eisenhower model. Zbigniew Brzezinski in 
1997 on the 50th anniversary of the National Security Act 
observed that when President Kennedy disestablished 
Eisenhower's national security structure, he eliminated the 
U.S. government's ability to do strategy at the highest levels.
    Perhaps an overstatement, but certainly don't want to 
discount the views of someone who was a National Security 
Advisor during the Cold War and Brzezinski certainly was that. 
Second, the importance of the active, persistent involvement of 
the President. We have reports, we have documents and we need 
them. President Eisenhower famously said the importance of 
strategic planning is not the plan, it is the planning. The 
plan is almost immediately obsolete once you put it on the 
shelf. He said the world--and certainly this is something the 
project highlighted--the world is changing in such a dynamic 
way, that strategy is not something you do every 4 years. 
Strategy is a persistent effort that requires constant 
adjustment, the constant identification of new sources of 
advantage that your rivals are developing and the search for 
new sources of advantage in how you can apply them on your 
side. And so for that reason, while some presidents--for 
example, President Bill Clinton in his first term--of course, a 
much less dangerous period--had less than two dozen meetings of 
his National Security Council.
    President Eisenhower, in his first term, had 179. And 
again, it was the sense that you needed a persistent 
involvement on the part of the senior leadership. In those NSC 
meetings, he had his principal advisors and he had no one else. 
There were no back benchers feeding information to the 
Secretary of State or the Secretary of Defense. He told these 
people, though, ``you are too busy to think strategically at 
every possible moment, to devote the kind of dedication that is 
required.'' So what Eisenhower had done at the suggestion of 
George Marshall was to establish something called the Planning 
Board. And the Planning Board--each statutory NSC member had a 
full-time person basically working on the Planning Board. In 
State, it might be somebody like the Director of Policy 
Planning and in Defense it might be someone like the Office of 
Net Assessment Director Andrew Marshall. And these people were 
responsible for doing the hard work of strategy, identifying 
issues and presenting them for consideration at the NSC 
meetings, doing the hard thinking of strategy.
    And again, Eisenhower said that, of course, you could never 
quite predict the crisis. You would confront the problem when 
it would manifest itself in full form. But he said the fact 
that you had these regular meetings, that you were doing this 
diligent work of strategizing meant that when you finally 
encountered that problem, you had been living with it. He and 
his team had been living with it, they had an understanding of 
what to do. Much better than they would have if they just sort 
of managed the strategy from crisis to crisis.
    Finally in addition to the Planning Board, there was an 
Operations Coordinating Board. And this essentially was the 
group of people who three months later, six months later, nine 
months later, once the President made a decision would go out 
to the departments, to the agencies and say the President made 
a decision, what are you doing to execute it. And the failure 
on the part of groups or individuals or departments and 
agencies to comply should be an opportunity for staff changes, 
if I could say so. But the idea was to hold the bureaucracy 
accountable. Now, certainly there is the opportunity to 
organize interdepartmental groups. I think that is certainly a 
good idea, particularly when you look at the multidimensional 
aspects of the many problems we face. But again, that is not 
new.
    And one of the more famous examples of such a group was the 
interdepartmental Special Group (Counter-Insurgency) that 
President Kennedy organized that was chaired by Maxwell Taylor 
and Robert Kennedy to deal with the growing threat of wars of 
national liberation. And you did have this interagency 
approach. You had two people who had direct access to the 
President. And still, that effort ultimately proved a failure. 
And I think the reason why was not because of organizational 
structure. I think, again, it is a matter of crafting good 
strategy and enforcing accountability on those who are directed 
to carry out the directives of the President. While this is far 
from comprehensive--I only have five minutes? It is a modest 
proposal. It is an area of focus. It is something that the 
President can do without legislation, without any new assistant 
secretaries of this or that. And it is something although 
modest and certainly not as comprehensive as the Project's 
report, I think has the potential to make a substantial 
contribution. This concludes my remarks, Mr. Chairman. I would 
be happy to respond to any questions.
    Dr. Snyder. Thank you, Dr. Krepinevich.
    [The prepared statement of Dr. Krepinevich can be found in 
the Appendix on page 34.]
    Dr. Snyder. Dr. Destler.


STATEMENT OF DR. I.M. (MAC) DESTLER, SAUL I. STERN PROFESSOR OF 
 CIVIC ENGAGEMENT, DIRECTOR, PROGRAM ON INTERNATIONAL SECURITY 
  AND ECONOMIC POLICY, SCHOOL OF PUBLIC POLICY, UNIVERSITY OF 
                            MARYLAND

    Dr. Destler. Thank you very much, Chairman Snyder, 
Congressman Wittman, distinguished Members of Congress, it is 
an honor to be here. I am happy to--there is going to be a 
little bit of tension before I finish my remarks between what I 
am going to argue and what my distinguished colleague has very 
expertly argued for. First of all, let me pay tribute to this 
Project. There is an awful lot of good stuff in here and I say 
this as someone who didn't participate in it. So I can be 
objective. And it also seems to be relevant. Our new National 
Security Advisor, General Jones, has declared that the Obama 
National Security Council will be dramatically different from 
its predecessor, with broader substantive scope. And the 
President issued last month Presidential Policy Directive 
Number-One mandating broad participation in national security 
policymaking at the presidential principals and deputies levels 
and below.
    Certainly, the needs for such reform seem undeniable. The 
institutions currently available to meet 21st century 
challenges are in the main institutions created in the late 
1940s. A very, very different world. It is hard to argue 
against, to quote the report, ``a bold but carefully crafted 
plan of comprehensive reform.'' And the Project on National 
Security Reform has devoted enormous effort to this 
undertaking. Its conclusions merit serious consideration. Yet 
history offers caution. And as shown by our most recent 
national effort at organizational reconstruction, the creation 
of the Department of Homeland Security, bold changes do not 
necessarily bring benign results.
    Let me concentrate here on the two core PNSR 
recommendations that my colleague here referred to. First of 
all, the creation of a President's Security Council to 
encompass not only the subjects currently addressed by the NSC 
and the Homeland Security Council, but also with international 
economic and energy policy, ``fully integrated,'' as well.
    And the second central organization proposal is statutory 
creation of a Director of National Security replacing 
apparently the current national security assistant or Assistant 
to the President for National Security Affairs, known as the 
National Security Advisor, and having this official supported 
by a statutory executive secretary. My credentials for arguing 
this are most of my lifetime spending time at least off and on 
looking at these issues and recently co-publishing a book, 
which I will wave not because I want you all to run out and buy 
it, of course, but because it actually is the basis for my 
testimony. Because it is an analytic history of how National 
Security Advisors from actually McGeorge Bundy onward have 
handled the job and have related to their presidents. And it 
leads me, as you will see, to some skepticism about the 
Director of National Security proposal.
    First of all, let me talk about the President's Security 
Council. The impressive members of the guiding coalition who 
signed this report have backgrounds overwhelmingly in national 
security policy traditionally defined. It is, to their credit, 
that they see a need for broadened jurisdiction but no one in 
the group so far as I can tell has had any senior level 
experience in addressing economic issues, domestic or 
international. Historic NSC has proved progressively less able 
to oversee economic issues effectively. Beginning with Richard 
Nixon, Presidents have established parallel economic policy 
coordination institutions outside of the NSC to handle them 
with the National Economic Council established by Bill Clinton 
and continued by George W. Bush and Barack Obama as the latest 
manifestation.
    This is no accident, because international economic issues 
are not simply an extension of national security issues. They 
reflect a set of challenges arising from a different set of 
forces, processes and institutions. They are at least as much 
linked to domestic economics as they are to political-military 
issues that drive the NSC and would likely drive a President's 
Security Council. They involve different forms of analysis, 
different instruments of policy, different governmental 
institutions as the current global economic crisis makes 
abundantly clear.
    Their current urgency demands that they have at least co-
equal status in the White House, advisor and counsel addressing 
these issues on their own terms, not wedged within a security 
perspective. Of course, Larry Summers and James Jones should 
coordinate with one another. And if they haven't engaged the 
capable joint deputy, Michael Froman, to be sure that 
international economic policy draws on both of their 
perspectives. But to go further to subordinate economic issues 
within a Presidential Security Council would be, I think, to go 
against both logic and experience.
    I am not as familiar with energy or environmental policy, 
but I suspect some of the same considerations may apply. 
Perhaps President Obama is not wrong to have engaged separate 
senior officials for national security environment and energy--
national security and economics and energy and the environment. 
Though keeping them from working at cross purposes on issues 
that overlap is a daunting task. I have a different set of 
doubts about establishing a Director for National Security at 
the White House. Presumably this official would replace the 
National Security Advisor, although the executive summary 
doesn't quite say that. The position would be established by 
legislation, but no recommendation is made on whether she or he 
would be subject to Senate confirmation.
    Supported by a statutory executive secretary, this director 
would not only be ``the principal assistant to the President on 
matters related to national security,'' but he would also be 
charged with administering a wide range of planning and 
integrating instrument in overall strategy, planning, guidance, 
a resource document, a network of interagency teams, et cetera. 
The director would be asked to combine the planning tasks of 
Dwight Eisenhower's Bobby Cutler who managed the system that my 
colleague here has described and Kennedy's McGeorge Bundy, who 
managed the day-to-day issues for the President, whence would 
come the power of this individual to carry out this awesome 
task. What would make the departments and agencies commit their 
time and best people to this elaborate exercise, whatever its 
abstract merit, the PNSR report uses words like ``empower,'' 
suggesting that mandating these activities is the same as 
making them real and effective.
    In practice, however, whatever the change in title, the 
director would gain his power overwhelmingly from his 
relationship with the President, just as National Security 
Advisors do today. Would the President want him or her to spend 
his time that way? Eisenhower didn't want Bobby Cutler to do 
this. But he also had Andy Goodpaster, who handled his day-to-
day decisionmaking on crisis management often outside 
Eisenhower's formal system. Kennedy didn't want it and he and 
Bundy transformed the National Security Advisor job to one 
supporting the President's daily national security business and 
connecting his senior officials to him and to one another.
    None of Kennedy's successors, including Jimmy Carter--
Zbigniew Brzezinski may now say that there should have been an 
Eisenhower system, but I know of no effort that he made to 
create anything like this when he was National Security 
Advisor. But none of Kennedy's successors wanted an Eisenhower/
Cutler planning system, save Nixon and Kissinger who employed 
an improved version for about 4 months in their Administration 
before they abandoned it to carry out--to pursue the most 
secretive policymaking process in history. It seems to me, 
given that presidents are not really going to want this, at 
least experience suggests that, this director would have a 
choice. He could persist in the elaborate integration mandate 
knowing that the President at best tolerated it and knowing 
that one day agency officials would learn that the process was 
not really driving presidential decisions or he could respond 
to what the President really wanted and delegate the formal 
system management to the executive secretary.
    Then there would be two layers, an interagency planning 
process below disconnected from the President and its principal 
advisors. Let me repeat, there is much that is good in this 
sophisticated report and its understanding of many of the 
problems of the current system and in its focus on improving 
budgeting and personnel. But I don't think the key 
organizational recommendations will survive careful analysis. 
And I particularly don't think they would work under this 
President, who strikes me as more like John F. Kennedy than 
like any other President in the postwar era, very cerebral, 
very much wanting to handle things himself, impatient in terms 
of formal structures. And I think the question is going to be 
whether James Jones, who I think would like a more formal 
structure, will be able to adapt to Barack Obama or whether he 
will end up having less relevance than he should have to the 
Obama decision process.
    In any case, it is the President--in national security 
policymaking in the end, it is to paraphrase a Clinton campaign 
label, it is the President, stupid. It is he, or she one day 
perhaps, who drives the system. His operating preferences and 
decision style are what any White House aide must accommodate. 
To encumber this aide with heavy formal responsibilities is to 
increase his distance from the President, weakening their joint 
capacity to achieve such national security policy coherence as 
our system of government will allow. Thank you very much.
    Dr. Snyder. Thank you, Dr. Destler.
    [The prepared statement of Dr. Destler can be found in the 
Appendix on page 51.]
    Dr. Snyder. You all may have figured out we are having a 
little clock problem. So Dr. Fenner is timing the five minutes 
and you are not getting that very helpful green and yellow. You 
are just getting the red flash at five minutes. That is what 
happened.
    Dr. Destler. I am taking advantage of it. I am sorry.
    Dr. Snyder. No, you didn't. You actually both were about 
the exact same time. Mr. Oleszek.

  STATEMENT OF WALTER OLESZEK, SENIOR SPECIALIST IN AMERICAN 
      NATIONAL GOVERNMENT, CONGRESSIONAL RESEARCH SERVICE

    Mr. Oleszek. Thank you very much, Mr. Chairman, Mr. Ranking 
Member, distinguished committee colleagues. Let me say that I 
am here because--not that I am an expert on anything to do with 
the military or national security or--only a little bit 
probably on executive organization. I am here largely because 
since I arrived at CRS in 1968, I have been involved in 
practically every House and Senate legislative reform effort 
since that time. So what I want to focus on are the 
recommendations that have been put forward by the Project on 
National Security Reform. And to do that, I am going to 
concentrate principally on one of their major suggestions and 
that is to create a Permanent Select Committee on National 
Security. I will also comment on the other recommendations as 
well. And so I have posed three questions that obviously I am 
going to answer.
    And since I made up the questions, I hope I can give you 
the right answers. But anyway, the first question is: Is the 
House committee structure organized in a fashion to promote 
integrated, coordinated interagency national security 
decisionmaking? And I suppose a short answer would be no. That 
would take some additional analysis and study. But the point I 
really want to emphasize is this: That the great strength of 
the Congress is that it is a decentralized structure. The fact 
that it functions through committees, subcommittees, informal 
task forces and other entities as well. This is the division of 
labor. This is the specialization system that the Congress has 
provided itself.
    And it is also a way for constituents and special interest 
groups or anybody else to have access during the formative 
stages of the lawmaking process during the committee 
policymaking process. So there are tremendous advantages to 
having the dispersion of policymaking power spread around if 
you will. And now the question becomes if it is spread around 
too much. One of the deficiencies in the legislative branch 
would be the lack of what people would call integrative or 
coordinative capacities and there are a few committees that are 
able to do this.
    One of those committees that take a big picture view if you 
would--it would be the Budget Committee, for example. Or 
another one might be the Rules Committee. But principally the 
integrative force on Capitol Hill--are the party leaders. 
Particularly in the House, it is going to be the majority 
leadership, particularly the Speaker. They are the integrators 
that will control the centrifugal forces out there manifested 
by the committee system.
    Now, the second question that I would pose is this: If the 
system is not organized for integrative coordinated activity in 
this realm, is a permanent select committee the proper 
approach? And the answer that I would provide is maybe, perhaps 
because that question is not answerable unless you know what is 
the authorizing responsibility of the Select Committee. Does it 
have legislative authority or not, the ability to receive and 
report legislation? What is its membership, what kind of 
support does it have? Now, we have had tremendously good 
examples of select committees that have performed this 
coordinative function, but generally there's a dilemma and I am 
going to cite one or two.
    But the dilemma often in terms of crafting select 
committees, whether or not they have legislative jurisdiction 
or not, it raises the issue of turf. As all of you are 
familiar, better than I, turf is viewed as power on Capitol 
Hill. And when you create a select committee with legislative 
jurisdiction, then where is their mandate going to come from? 
Because all of the other standing committees are going to 
believe, well, that is potentially in my area, particularly 
when we are talking about interagency, national security 
issues. For example, just, you know, the 110th and now 
recreated in the 111th. But I will use the 110th, we all recall 
there is a Select Committee on Energy Independence and Global 
Warming chaired by Mr. Markey. That did not sit well when Mr. 
Dingell chaired the Energy and Commerce Committee in the 110th 
House. He was quoted pretty prominently and he used a phrase 
that caught the eye of a lot of folks that creating this Select 
Committee is useless, it is like having feathers on a fish. But 
nonetheless, it went forward and there were adjustments made, 
accommodations in the 110th to accommodate some of his 
concerns.
    Now, a couple that were with legislative jurisdiction are 
recently examples that I can cite are quite successful. Quite 
useful potentially and that is the ad hoc--not the ad hoc, the 
Select Committee on Homeland Security in 2002 created by 
Speaker Hastert. Why was it created? To create one single 
mission, and that was to create a Department of Homeland 
Security. And this was a pure leadership committee, the 
chairman was the majority leader, Dick Armey. Dick Gephardt 
named as the ranking minority member and Nancy Pelosi and every 
other member on both the majority and minority side were party 
leaders. Marty Frost, the Chair of the Democratic Caucus; Tom 
Delay, the majority whip, right down the line. And their 
mission was to deal with one issue. And the way they were a 
terrific coordinative body was that all the other dozen roughly 
dozen standing committees had an opportunity to look at the 
segments of the Department of Homeland Security that fell 
within their jurisdiction and then they were all submitted back 
to the select Homeland Security Committee chaired by Chairman 
Armey. And they aggregated this information and then submitted 
the legislation to the floor. And obviously we have a 
Department of Homeland Security.
    Once the Homeland Security Department was created, and this 
is not uncommon, sort of triggers a notion about what about our 
own committee system on the House side, the same thing occurred 
in the Senate as well. Do we need a standing committee to 
handle Homeland Security issues? And again another select 
committee was created in 2003 by Speaker Hastert, of course, 
subject to the vote of the House of Representatives. But he 
made plain in this membership of the Select Committee that--and 
it was filled with lots of committee chairs who were very 
protective of their turf, but he made a statement right after 
he was sworn in as speaker to all the members of the House, but 
this one sentence was targeted to the committee chairs you can 
be sure. It went something like this, that ``your authorizing 
an oversight jurisdiction will be protected.'' And by golly, it 
was protected.
    And when this committee was actually created, every--like 
10 other standing committees, including Armed Services 
Committee in terms of the legislative history, had specified 
exactly what kind of control they had over Homeland Security 
matters. Three things are really important in terms of creating 
a select committee. One is the support of the leadership 
without question. You have to have, you know, broad support 
certainly of, you know, the membership and then also you have 
to have the involvement of the standing committees that will be 
affected by the creation of this select panel. One of the 
issues that caught my eye was the jurisdictional mandate of 
this committee, if it ever came into being. It is quite broad. 
They give you--there are several pages, in terms of issues that 
this committee ought to be considering. Their brief definition 
is national security is the capacity of the United States to 
defend, define and advance its position in a world that is 
being continuously shaped, reshaped by the turbulent forces of 
change. And then they also highlight the turbulent forces of 
change affect all of the national sources of power.
    And what are all these national sources of power? It is 
quite broad to say the least. One of those things, sustain 
stewardship of sound economic policy. Energy security. 
Infrastructure, health, educational systems, et cetera. You go 
on to another page. And this caught my eye in terms of a grand 
strategy of how you mobilize all the sources of national power 
to accomplish your national goal. And it says it comprises 
these things, carefully coordinated and fully integrated use of 
all political, economic, military, cultural, social, moral, 
spiritual, and psychological power. That is quite a mandate.
    But anyway, so those are just issues to be mindful of and I 
don't think anybody knows how many interagency groups are out 
there is another consideration. Are there other ways by which 
this might be handled? Yeah, there are a lot of other ways. I 
am not saying a select committee should not be created. All I 
am saying is, hey, there has to be a lot of negotiation before 
it is going to be successfully created. But there are other 
methods that are in place. And one would be perhaps as a model, 
the Select Oversight Panel that is composed of members of the 
Intelligence Committee and the Defense Appropriations 
Subcommittee. Sort of an ad hoc joining of the authorizing and 
appropriating responsibility. You could have specialized 
subcommittees created.
    Even this committee might be reestablished in some way in 
the rules and by resolution as the forum to consider 
interagency national security issues. A multi-referral process 
could be artfully used by the Speaker. She has a power, not 
just Speaker Pelosi, but no Speaker has ever used this power 
that is embedded in the rules of the House, and that is to 
create an ad hoc oversight committee charged with obviously 
reviewed this kind of realm. Other methods as well. Committee 
composition, you had Congressman Smith, I was struck by the 
fact there were only a couple of committees where you 
deliberately have budget and intelligence, members drawn from 
other standing committees. And maybe that is an approach that 
ought to be tried on other standing committees as well. So you 
get this interagency national security concept, you know, the 
integration idea perhaps more prominently placed in the 
policymaking process there are others that I mentioned, but 
just quickly to wrap up, there is also the recommendation to 
consolidate all oversight within--of the Department of Homeland 
Security in the Committee on Homeland Security.
    The House took a major step in that direction in the 111th 
Congress when it passed House rules that granted the Committee 
on Homeland Security what is called special oversight. And 
special oversight is akin to the broad investigative power 
granted to the Governmental Affairs Oversight Government Reform 
Committee that was established by the 1946 Legislative 
Reorganization Act. So they have broad authority to oversee the 
Department of Homeland Security. The point is even if areas are 
within the jurisdiction of other standing committees, special 
oversight gives the committee the authority the right to review 
agencies and programs that fall within other standing 
committees.
    I should also mention that you are never going to 
consolidate and maybe you never should consolidate all 
oversight over any activity within a single committee. I think 
it is helpful to have a diversity of points of view. There is 
always the concern that people raise about committees being 
captured by, you know, the agencies or departments that they 
are overseeing. So I think there are tremendous advantages of 
having a large number of committees that oversee any particular 
department, particularly one so broad as the Department of 
Homeland Security. Another--they also recommended a 
consolidation of appropriations for Homeland Security and one 
appropriation, Homeland Security subcommittee chaired by, as we 
know, David Price today. And the two issues there are again 
turf. You have other appropriations committees, subcommittees 
that handle it. And also the bicameral factor. They like to 
have parallel subcommittee structures, House and Senate. So 
that is another consideration. And lastly, empowering the 
Foreign Affairs Committee. In my estimation, when I reviewed 
the three that they mentioned, I don't see how it empowers the 
Foreign Affairs Committee at all.
    One of the recommendations is to amend the budget 
allocation 302(a), so that you have an interagency national 
security function I believe. Well, these budget functions are 
for informational purposes only. There is no parliamentary way 
to enforce them. Second, they talk about firewalls. Don't 
transfer money out of international accounts or defense 
accounts into domestic accounts. But again they deal with--that 
is appropriation firewalls, not dealing with authorization 
legislation. And then a supermajority requirement to waive the 
rule that says authorizations are supposed to be enacted into 
law. They mention consideration. But they have to be enacted 
into law under House rules. Specify what supermajority, 60, 
two-thirds, and I believe all that does is empower a minority. 
It doesn't empower the Foreign Affairs Committee at all. And it 
often--the Foreign Affairs Committee will go to the Rules 
Committee to get a waiver of the rule against legislation on 
appropriation bills because there is a variety of reasons why 
you can't get a foreign aid or State Department authorization 
bill enacted in a timely way. And that is I guess really all I 
want to say.
    Dr. Snyder. Thank you.
    [The prepared statement of Mr. Oleszek can be found in the 
Appendix on page 54.]
    Dr. Snyder. Mr. Wittman and I always put ourselves on the 
five minute clock and so we will begin. I think we are going to 
have votes sometime between 2:00 and 2:15. But I think we have 
time to do at least one round of questions. Mr. Oleszek, I 
think I will ask you the first question. I think you can 
respond just yes or no if you like. One of the things that the 
report says is that it needs to be adopted in its entirety, all 
the recommendations adopted in its entirety. Do you think the 
chances are pretty good of that happening?
    Mr. Oleszek. I should say as a part-time academic, I am 
programmed to speak in 60 minutes clip, no.
    Dr. Snyder. I was actually surprised. I mean, I know people 
that have worked on it, but there is almost a certain naivete 
about it that says you are going to adopt everything about the 
Congress, the Administration. I wasn't sure quite why they 
decided to make that point. Dr. Krepinevich, I wanted you to, 
if you would, tell me what you think about the changes that 
have already been made in President Obama's administration with 
regard to the National Security Advisor, the National Security 
Council, how you see that is different from the President Bush 
Administration, where you see that fitting into what you were 
recommending with regard to President Eisenhower?
    Dr. Krepinevich. Well, referring to what my colleague, Dr. 
Destler said, I think people matter and thinking matters. And 
obviously, if President Obama is not inclined to an Eisenhower-
like national security staff structure, it is going to fail. 
And there is no system that if you put it into place can 
survive the unwillingness of a leadership to employ that 
system. There is always potential for the President to find 
workarounds for a system that he or she doesn't want. Having 
said that, as long as we are using the Kennedy analogy, you can 
have a very bright, energetic, charismatic President, as 
President Kennedy was, and as many people certainly believe 
President Obama is. But I also recall that President Kennedy's 
system, in part, also contributed to during the first 18 months 
or so of his administration to--you know, we had a series of 
crises, whether it was the Bay of Pigs, the Vienna Summit, the 
Berlin Wall, the Cuban Missile Crisis.
    When you look long-term, we had the sort of stumbling along 
in places like Vietnam. So there is, I think, a decision for a 
President to make that if I want to be serious about strategy, 
these are some of the things I have to do. And it doesn't have 
to a carbon copy of the Eisenhower structure, but it does have 
to be the persistent, active involvement of the President in 
this kind of a process. And certainly, we don't have that right 
now and I am struck by the fact that people who typically are 
very bright and who are very self-disciplined, and I think 
those are both qualities that the President has, are capable 
of--and who can exercise self-discipline can do some remarkable 
things. If you look, for example, at the history of our first 
President, George Washington, particularly during the 
Revolutionary War, his whole personality told him that he 
should engage the British in battle after getting his clock 
cleaned a few times, he exercised an incredible amount of self-
discipline and only sought battle on those most--occasions most 
advantageous to him.
    Again, you would hope that we wouldn't have to learn the 
hard way, that this administration wouldn't have to learn the 
hard way. But the structure we have set up now, it seems to me, 
doesn't really bring together the kinds of talent and the 
organization and the level of persistent commitment that was 
characteristic of the Eisenhower Administration.
    Dr. Snyder. Excuse me. What do you think, then, of the 
changes that have been made thus far? There has been a couple 
of directives that have come from the President about changes 
to the National Security Council.
    Dr. Krepinevich. I think there is an effort to look at 
problems in a more comprehensive holistic way, which I think 
can be a good thing. I am concerned about the fact that--I 
talked to--this was in a public setting--Brent Scowcroft about 
this. He was concerned about the growth in the National 
Security Council staff and I share that concern. The fact that 
it should not be a substitute for department and agency 
performance. It should help bring issues to the attention of 
the President, present them in a very logical, coherent way for 
his or her decision. And it should help ensure that the 
President's decisions are executed faithfully. And I am 
concerned about the fact that, again, there seems to be a 
certain amount of effort here to try and make up for the 
deficiencies in the departments and agencies in terms of 
execution and in their performance in identifying if there is 
any issues to the President.
    Dr. Snyder. Dr. Krepinevich, where do you see the issue 
that--we have been having the discussion the last couple of 
years about the whole issue of interagency and interagency 
reform which the Locher Report is talking about. In your 
construct, where you put a priority on strategy, I thought your 
discussion was very good. Where do you see--where does the--the 
issue of interagency--the need for interagency reforms, the 
disconnect from the difference agencies, where do you see that 
fit into your construct on strategy and means and resources?
    Dr. Krepinevich. One of the interesting aspects of the so-
called Planning Board on the NSC staff on the Eisenhower 
administration, was again you had this persistent attention but 
they also had the ability to go outside the organization and 
tap into expertise. And I think here you might have the--you 
have the potential for organizing certain interdepartmental 
groups that focus on a particular issue as long as it is 
relevant and that is sort of a group--I will give you a 
historical example of one that was formed during the Kennedy, 
counterinsurgency and that was designed to bring together 
various elements of the government because as we know, 
counterinsurgency involved not only security but reconstruction 
and governance and intelligence and so on. And the effort there 
was to raise that to the presidential attention.
    It was worthy of presidential attention. And in that case, 
you had no planning board. You had Maxwell Taylor and Bobby 
Kennedy essentially reporting directly to the President on what 
kind of progress they thought they were making. It was more ad 
hoc. It was less rigorous than something that would be 
incorporated into a planning board. But I would see that as 
being something that could prove productive in this current 
environment.
    Dr. Snyder. Dr. Destler.
    Dr. Destler. Could I suggest you put on the table an 
alternative model to Eisenhower's? And that is the way the 
policy process was run under the first President Bush, George 
H.W. Bush, which you had Brent Scowcroft as the ultimately 
trusted, capable low-profile national security assistant who 
essentially was the glue that held together a policy process at 
the principals level, at the deputies level, and below. It was 
a good, constructive, positive interagency process. It was not 
an elaborate planning system. They were being hit with changes 
and they had to adapt to them. But they did some very far-
sighted things, as in making the unification of Germany on 
terms that were not only acceptable to Britain and France, 
which was difficult enough, but actually making it acceptable 
to Russia in a situation--and they did this very carefully but 
through a set of informal relationships that were carefully 
nurtured by Scowcroft, whose principle was you spend the first 
year on the job establishing trust most of all with the 
President, but with everybody else as well.
    It was an informal system, but it was very effective. I 
believe that is probably about the best that we can do in terms 
of high-level coordination. Now, I mean there were other--you 
could invent a Brent Scowcroft with even greater skills in some 
areas. You could--you could tweak it in different ways. You 
could say you could add maybe more budgetary analysis. But I 
think basically what you need to do is look for a person who 
can work with the President and develop informal networks and 
they are supported also.
    There is a formal structure too. My colleague mentioned all 
the meetings that Eisenhower had of the National Security 
Council. There is something of over 300 I think during the 
eight years of the Eisenhower administration. I am not sure 
there were that many in the entire 50 years or so--other 
years--50--other years of the--and that suggests that most 
Presidents have not found that formal deliberative process very 
useful. They may be wrong. But they are the ones who make the 
calls. So I think building on what the Presidents want, you 
still need to try to develop something. And you still need to 
try to constrain the President, but you can only do it if you 
have his confidence and you serve him effectively.
    Dr. Snyder. My time has expired. We will now go to members 
who were here at the beginning of the hearing when the gavel 
went down. And we go to Mrs. Davis for five minutes.
    Mrs. Davis. Thank you, Mr. Chairman. Thank you to all of 
you for being here. I marvel a little bit in the fact that in 
my short time here in Congress, we seem to have really gained 
at least some understanding and consciousness of the need to do 
this, which quite a few years ago we didn't really have--
certainly as a committee or here. Dr. Krepinevich, you 
mentioned your skepticism, I think, about the willingness of 
departments and agencies to reward personnel who choose to 
invest in interagency expertise. If we don't do that, where do 
we look for that kind of change in management and behavior? How 
do you--could you respond to that?
    Dr. Krepinevich. My expertise is primarily associated with 
the Defense Department. So I will give you an example about 
something that I know. In the Goldwater-Nichols legislation in 
1986, something called the JROC, the Joint Requirements 
Oversight Council, was established in the Defense Department. 
And the idea was that you would have the number-two person in 
each of the four military services meet along with the Vice 
Chairman of the Joint Chiefs, and they would make decisions 
that would be in the best interest of the Defense Department 
and support national security. The idea was that you would 
create trade space, that this body of five would identify what 
the Department requirements were as opposed to their individual 
service requirements. And in so doing, it would liberate 
resources to be moved from one area to another.
    That just hasn't happened in, what, 23 years now. You are 
the Vice Chief of Staff of the Army. You go back to the Army 
and if you have lost or you have lost resources to the Air 
Force and the Navy, you go home and you have lost the game. I 
mean, you should be ashamed of yourself. We have had all 
different kinds of people in the environment and they are all 
good men. But they all come from institutions and they all know 
where they come from.
    The way to break that logjam I think is you have to have a 
senior civilian leader in the form of the Secretary of Defense 
who is willing to force that body to work, to say, ``Look, if 
you don't come up with the answers for me, then I am going to 
make decisions based on my best understanding. I have two 
internal think tanks, I have the Office of Net Assessment that 
does strategy for me, I have the Office of Program Analysis and 
Evaluation that can do tradeoffs for me. And if the 
professional military can't give me any help, if all you are 
going to do is protect your rice bowls, then I am going to make 
decisions based on the best information I have.'' And that, I 
think, offers you the best chance of getting a healthy 
competition going to where you can get senior people to live 
outside their particular service or institution. That, again, 
is a fairly narrow example.
    Mrs. Davis. If I could just interrupt for a second. Because 
in many ways, that seems premised on the belief that you have 
on deep benchers on all sides, that you have got people to fill 
in, to cross-train, to do a certain amount of work out of their 
own specialty. And I think one of the problems that we see and 
I hope that in the discussion we will look at the budgets. And 
the report talks about the interactive budgets and integrated 
budgets. I am sorry. I think what we find so frustrating is in 
many of our discussions we know that there is such an imbalance 
between the needs of State Department for example, and the 
Pentagon and that you just don't have the people to play those 
roles.
    Dr. Krepinevich. But again let me sort of make the case for 
strategy. What is our strategy for dealing with an increasingly 
disordered world that is characterized by radical Muslim 
fundamentalists, transnational criminal gangs, narcotics gangs. 
I would submit that there are four that I have heard in my 
travels around Washington. One is the ``no more Iraqs, no more 
Afghanistans.'' This current experience is a one off, we are 
not going to do this anymore, the military needs to get out of 
this business. Just like after Vietnam we will take a 30-year 
break. And I have had generals tell me that.
    Second is the strategy that sort of came out of the 2006 
QDR, which is the indirect approach building partner capacity. 
We are not going to get directly involved anymore, we are going 
do build up the militaries of other countries so they can 
defend themselves. Secretary Gates in his recent Foreign 
Affairs article talking about a balanced defense seemed to 
indicate that it was that, plus the ability to surge if a 
country that was truly vital to our security was coming 
unraveled.
    And then there is the fourth option that says we are going 
to have a strategy where we conclude that we can't get the rest 
of the world to help, we can't get our allies to help, we are 
going to have to take the lead, we are going to have to police 
democracy's empire, we just need to face up to that fact.
    Depending upon what strategy you pursue, it has profound 
implications for the military services, their size, their 
orientation, who gets what. And so I guess my plea here today 
is strategy really does matter, and strategy is hard to do. But 
you ignore it at your peril, you ignore it at the risk of 
compromising the nation's security, the survival and well-being 
of its citizens.
    Mrs. Davis. Thank you. I can go on, Mr. Chairman, but I 
suspect my time is up, even though the lights are not on.
    Dr. Snyder. Dr. Fenner just was contemplating what the 
content was and lost track of time.
    Mr. Wittman for five minutes.
    Mr. Wittman. Thank you members of the panel. I appreciate 
you coming here. Some interesting dichotomy there in thoughts 
about this particular study. Dr. Krepinevich, you pointed out 
really focusing on crafting good strategies and you talk about 
using the Eisenhower NSC model, including planning and 
operation coordination boards.
    Is that something that you think can be effective in the 
long run from administration to administration? And the reason 
I say that is if you get a new administration is that something 
you would say needs to transcend administrations? And in 
addition to that, what do you think on the congressional side 
should happen to make decisionmaking there more effective, more 
efficient?
    Dr. Krepinevich. Well, let me preface by just voicing my 
agreement with Dr. Destler's point that people matter here. You 
can't force a particular system on a President. They will find 
a way to work around it. They can have any kind of ad hoc group 
they want, no matter what you call the formal group, and they 
each have their own decisionmaking styles.
    Having said that, my observation is if you want to craft 
good strategy you need to know that it involves the persistent, 
active involvement of the President of the United States, that 
he does not have time to craft strategy himself, which is why 
something like the Planning Board where you have in a sense an 
interdepartmental group of strategists working hard trying to 
identify issues, sources of advantage and so on. You have 
frequent meetings of the key players, the National Security 
Council. It doesn't have to be the statutory, it can be just 
the relevant players for that issue. And you have to have some 
way of enforcing decisions, which was the Operations 
Coordinating Board. And you have to have a President who is 
willing to fire people, and I think that is one of the 
endearing, if I could say, aspects of Secretary Gates. He will 
not put up with people who aren't doing their jobs. And again, 
you have got to enforce some level of rigor, and even then it 
is going to be difficult.
    But that is my message to an administration that is 
interested in crafting good strategy and trying to get it 
executed. I think Congress has the oversight role; to what 
extent is the Administration crafting strategy, does the 
strategy make sense? I think there is certainly limitations on 
that. Several years ago Chairman Hunter essentially tried to 
take on that mission, at least in terms of the Defense 
Department, and get the committee to look at various aspects of 
a Quadrennial Defense Review from Congress' position as a way 
of being an informed B team, if you will, or red team for what 
the Pentagon was doing.
    I participated in the National Defense Panel in 1997. I 
think that is another way that Congress--you know, an 
independent body of experts focusing, sort of strategy experts, 
if you will, sort of Congress' planning board, that can at 
least evaluate and assess and provide Congress with an 
independent view of how good the administration strategy is, 
may be another possibility.
    Mr. Wittman. Thank you. Dr. Destler, in your opinion has 
the National Security Advisor become a policymaker or an 
implementer instead of a policy advisor to the President? And 
to add to that, if the National Security Advisor conducts 
national security policy, should the appointment require Senate 
confirmation and allow for the person to be subject to testify 
to congressional committees?
    Dr. Destler. That is a very, very good and important 
question, Congressman. First of all, I hate to say it depends 
on which National Security Advisor, and it is too early to tell 
about the present one. I would say that most recent National 
Security Advisors have not been implementers, have not been 
negotiators. Some, like Condoleezza Rice, have been very 
prominent public spokespeople for the administration. Certainly 
Henry Kissinger did everything when he worked for Nixon. He was 
a negotiator. He was actually not the spokesman until very near 
the end of the first term. People don't remember that because 
he spoke so much after that. But nevertheless the National 
Security Advisor is a very--I would argue that in principle I 
do not believe the National Security Advisor should be 
confirmed by the Senate, because I think that would lead to the 
National Security Advisor in practice being an alternative 
official public spokesman. And this would create real problems, 
real tensions with the Cabinet officials, particularly the 
Secretary of State but also the Secretary of Defense.
    However, I would say that to the degree that the National 
Security Advisor in fact becomes, say, the principal 
negotiator, or becomes the most important and visibly important 
policy voice, short of the President, I think Congress will 
quite understandably seek to have this person confirmed because 
Congress naturally wants to talk to the person, the people who 
are really making the decisions.
    So I would say I would combine my cautionary recommendation 
about confirmation with the caution to the National Security 
Advisor; don't get out too much in public, don't--you know, if 
you give an address to the President make it confidential, 
don't go telling the press that you are the one who really made 
the decision. Play the role quietly, give credit to others, and 
talk to Members of Congress, but not necessarily testify, and 
be straight and helpful to Members of Congress.
    Dr. Snyder. Ms. Pingree for five minutes.
    Ms. Pingree. Thank you, Mr. Chair. And thank you very much 
for your presentation. As you can see by my placement in the 
room, I am one of the newest members in this committee, and so 
I am actually here to learn as much as to ask you questions. 
But let me just ask you one thing that any one of you I am 
happy to hear from on this. And I think one of you mentioned 
this idea that once we run out of money then we have to think. 
And given the suggestions that have been made here in what you 
have already said to us and what is written in the very thick 
document that you have in front of you, how do some of these 
suggested changes have an impact on our refocusing of national 
defense spending? I mean clearly for many of us coming in in 
these difficult economic times that is one of the challenges. 
And given the responsibilities we have on our plate, and also 
the interest in shifting some of the way we think about our 
defense priorities, how do you see some of this having an 
impact on that and other suggestions you might make in that 
kind of realm?
    Dr. Destler. That is a wonderful question. Let me just 
respond very briefly. I think Secretary Gates has been one who 
has said that because the Defense Department has a bigger 
budget and has certain capacities, that the Defense Department 
has been asked to carry certain activities which would be 
better off being carried by other parts of the government, 
particularly the State Department. And certainly the whole 
complicated question of postwar stabilization has been one of 
those areas.
    So I think one of the issues is, which is important both in 
terms of congressional decisionmaking in terms of 
Administration decisionmaking, Administration planning, is how 
can one at least incrementally figure out a way to empower 
institutions, particularly the elements of the State 
Department, but other operational institutions outside the 
Pentagon, so that they both can get resources from Congress on 
a consistent basis for carrying out very strong civilian 
operational responsibilities and also are capable of doing that 
in a way that will satisfy you.
    I think that is the right question, and I think it probably 
it is going to have to be dealt with incrementally. Hopefully 
Secretary Clinton--I believe she is thinking about this, and 
hopefully will work on this issue.
    Dr. Krepinevich. If I could be permitted to use my strategy 
example. Suppose we pick, let us call it, the ``Gates 
Strategy'' in respect to dealing with a disordered world. And 
it is going to be an indirect approach, it is going to be 
building partner capacity, but we reserve the right to surge 
military capability into an area that is threatened. In that 
case you are going to be heavily engaged in efforts in terms of 
economic assistance, in terms of assisting states that are weak 
states with their governance, which means you are going to have 
to devote more money perhaps to the United States Agency for 
International Development (USAID), you are going to have to 
shift funding into the State Department to train more Foreign 
Service Officers and others that can come in and help nations 
improve their governance.
    You may reduce the size of the Army eventually because, 
again, if the Army is not going to be sort of the first source 
of response to these kinds of situations but they are going to 
train indigenous forces, advise them, then they provide large 
amounts of manpower. We provide very high quality manpower but 
in very small doses. So that strategy over the longer term 
could lead you to, again, increase your resources for 
organizations like USAID, State Department, probably the 
Intelligence Community, although shift that money within the 
Intelligence Community from more national technical means of 
gathering intelligence to human intelligence, and then perhaps 
a reduction in the size of the Army because they wouldn't be 
sort of the first and only response you would have to a crisis 
situation.
    And again, that is drawn upon the results of an effort to 
come up, okay, what strategy makes sense. In this case, you 
recall I talked about strategy involves identifying and 
exploiting sources of advantage. Theoretically you would be 
exploiting two sources of advantage. One is high quality 
manpower in terms of advising, equipping, training, improving 
governance. The other is the scale of effort, assuming we right 
our economy, and so on, and strengthen the foundation. We have 
the ability to provide assistance on a greater scale than just 
about any other country in the world. And so for small 
countries it seems like a huge amount of funding. And of course 
we have a history, sometimes good, the Marshall Plan, sometimes 
bad, Alliance for Progress, in terms of success here.
    Dr. Snyder. Mr. Thornberry for five minutes.
    Mr. Thornberry. Thank you, Mr. Chairman. I appreciate you 
and Mr. Wittman allowing me to sit in, and I have not had a 
chance to read Dr. Destler's book. I have read about it. I have 
had the chance to read Dr. Krepinevich's recent book on the 
importance of one of the things about it, importance of 
strategic planning, which makes a very persuasive case for me.
    I guess I would like to step back from the questions you 
have had so far and ask: do you think we need to make 
significant organizational changes? I think a lot of the 
impetus for this report came from maybe two things. One is the 
world is more interconnected than ever, so we cannot be 
effective and have military over here and diplomacy over here 
and economic assistance over here, and so forth. But secondly, 
there is a feeling that the military had to do everything in 
Iraq and Afghanistan, that the other departments never showed 
up. And while individuals did amazing things on the ground, 
that the bureaucracies were in their stovepipe worried about 
turf and their budget.
    So I think that is a lot of what got us here. And I 
appreciate the issues you all have brought up with this 
particular report, but do you think we need to have a 
significant organizational change or can it be adjusted 
according to a President's preferences and we can kind of get 
along?
    Dr. Krepinevich.
    Dr. Krepinevich. Again, if I have to vote, I would vote in 
favor of the argument that people matter. It matters who the 
President of the United States is. It matters whether that 
person is willing to devote persistent time and attention to 
crafting good strategies, and quite frankly being ruthless in 
implementing them in terms of dealing with recalcitrant or 
reluctant elements of the bureaucracy. I think thinking 
matters. I am a big fan of thinking relative to process. And 
not to say that structure isn't important and process isn't 
important, but again I honestly believe that there is a 
shortfall in terms of strategic thinking, strategic competence. 
And that is one thing I think that the project really did hit 
very well.
    The notion that the world is more complicated, okay, the 
world is more complicated. Marshall Plan, late 1940s. I mean 
that was a confluence of a number of factors. There were 
economic factors, there were security factors, there were 
intelligence issues that needed to be brought to bear, 
diplomacy on a very high level, the Suez Crisis in 1956, 
Soviets threatening to launch nuclear rockets on Paris and 
London, Eisenhower using U.S. economic leverage to get the 
British to pull out of Suez, and then the conflict, diplomacy 
to wrap things up, trying to pull improve the U.S. position in 
that part of the world.
    The world has been a messy place for a very long time, and 
it is typically, not typically, but often the case that there 
is an interweaving. Kennedy Special Group (Counter-Insurgency). 
You know, CIA, State, USAID. In a sense we have been to this 
movie before. And so while I always believe that we can improve 
structure and process, I think what really matters is people, 
as my colleague Dr. Destler says, and thinking. Coming up with 
a good strategy. I would rather have a mediocre execution of a 
great strategy than a great execution of a mediocre strategy.
    Dr. Destler. One of the ways you can I think think about 
people, but also think about sort of structuring, at least 
process, is you need to have people at various levels of the 
system who know who are the relevant players in the government 
on a particular issue and can have empowerment to pull them 
together. It will be partly what agencies they are from and 
what briefs they have, it will be partly who is good, who is 
capable of moving things and getting the process to work. And I 
think that probably has to be done more in an informal than a 
formal way, but nevertheless it is going to have like a 
Principals Committee structure in the NSC and a Deputies 
Committee structure and some regional groups at a level below 
that. But they sort of ought to be--and I think that is one of 
the good things about this report, is they do talk about 
flexible empowering of interagency groups and trying very much 
to push the responsibility down in a way that people in the 
agencies can not only participate and influence it, but 
influence it in the name of the broader purpose, rather than 
simply.
    So I think one needs to look for devices like that. But I 
can't think of an organizational reform that would promote, you 
know in terms of a structural change, that would do anything 
other than at the margins, little things like the State 
Department created an Office of Reconstruction around the 
middle of the Bush Administration. And I think this was a 
constructive enterprise. People said, well, is the State 
Department powerful enough to do this? Maybe, maybe not. Were 
they able to get interagency cooperation? Well, a little bit.
    So I think you need to look for ways to make those things 
better. But I think some things like that probably are worth 
doing and hopefully helpful.
    Mr. Thornberry. Thank you. Thank you, Mr. Chairman.
    Dr. Snyder. We have votes going on. And I think given that 
we have votes and we have been here about an hour and a half, I 
don't think we will keep you all sitting here.
    Do you have anything further you would like to ask, Mr. 
Wittman?
    Mr. Wittman. No.
    Dr. Snyder. Mrs. Davis.
    Mrs. Davis. No.
    Dr. Snyder. Ms. Pingree.
    Ms. Pingree. No.
    Dr. Snyder. Members may have questions for the record. And 
let me just extend to you the offer that if you all have 
anything written that you would like to have attached to this, 
except this is a question for the record, to send us anything 
that you would like to add on.
    We appreciate your contribution today, but also all three 
of your contributions through a lot of years to these kinds of 
discussions, and we appreciate you.
    We are adjourned.
    [Whereupon, at 2:25 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 19, 2009

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 19, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 51105.001
    
    [GRAPHIC] [TIFF OMITTED] 51105.002
    
    [GRAPHIC] [TIFF OMITTED] 51105.003
    
    [GRAPHIC] [TIFF OMITTED] 51105.004
    
    [GRAPHIC] [TIFF OMITTED] 51105.005
    
    [GRAPHIC] [TIFF OMITTED] 51105.006
    
    [GRAPHIC] [TIFF OMITTED] 51105.007
    
    [GRAPHIC] [TIFF OMITTED] 51105.008
    
    [GRAPHIC] [TIFF OMITTED] 51105.009
    
    [GRAPHIC] [TIFF OMITTED] 51105.010
    
    [GRAPHIC] [TIFF OMITTED] 51105.011
    
    [GRAPHIC] [TIFF OMITTED] 51105.012
    
    [GRAPHIC] [TIFF OMITTED] 51105.013
    
    [GRAPHIC] [TIFF OMITTED] 51105.014
    
    [GRAPHIC] [TIFF OMITTED] 51105.015
    
    [GRAPHIC] [TIFF OMITTED] 51105.016
    
    [GRAPHIC] [TIFF OMITTED] 51105.017
    
    [GRAPHIC] [TIFF OMITTED] 51105.018
    
    [GRAPHIC] [TIFF OMITTED] 51105.019
    
    [GRAPHIC] [TIFF OMITTED] 51105.020
    
    [GRAPHIC] [TIFF OMITTED] 51105.021
    
    [GRAPHIC] [TIFF OMITTED] 51105.022
    
    [GRAPHIC] [TIFF OMITTED] 51105.023
    
    [GRAPHIC] [TIFF OMITTED] 51105.024
    
    [GRAPHIC] [TIFF OMITTED] 51105.025
    
    [GRAPHIC] [TIFF OMITTED] 51105.026
    
    [GRAPHIC] [TIFF OMITTED] 51105.027
    
    [GRAPHIC] [TIFF OMITTED] 51105.028
    
    [GRAPHIC] [TIFF OMITTED] 51105.029
    
    [GRAPHIC] [TIFF OMITTED] 51105.030
    
    [GRAPHIC] [TIFF OMITTED] 51105.031
    
    [GRAPHIC] [TIFF OMITTED] 51105.032
    
    [GRAPHIC] [TIFF OMITTED] 51105.033
    
    [GRAPHIC] [TIFF OMITTED] 51105.034
    
    [GRAPHIC] [TIFF OMITTED] 51105.035
    
    [GRAPHIC] [TIFF OMITTED] 51105.036
    
    [GRAPHIC] [TIFF OMITTED] 51105.037
    
    [GRAPHIC] [TIFF OMITTED] 51105.038
    
    [GRAPHIC] [TIFF OMITTED] 51105.039
    
    [GRAPHIC] [TIFF OMITTED] 51105.040


=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 19, 2009

=======================================================================

                  QUESTION SUBMITTED BY DR. SNYDER

    Dr. Snyder. Do you believe that the professional military education 
system does or should play a role in designing national security 
strategy? Please comment.
    Dr. Krepinevich. The professional military education system should 
play an important--albeit indirect--role in designing our national 
security strategy.
    Strategy at the national level (and strategy in general) is 
typically done best by small groups of individuals who are talented 
strategists. This was the case with respect to the successful grand 
strategy developed by the Truman and Eisenhower administrations to 
prosecute the Cold War. The same is true for the ``triangular'' 
strategy developed by the Nixon administration that led to the opening 
to China in the early 1970s and produced a major shift in our 
geopolitical situation. Our overall strategy for prosecuting World War 
II in Europe with our British partners was crafted and directed by 
President Roosevelt, General Marshall, Prime Minister Churchill and 
General Alan Brooke.
    Professional military education institutions support the design of 
good strategy in two ways. First, our senior military schools teach 
strategy. To the extent they do it well, they contribute to populating 
our government, over time, with senior civilian and military leaders 
who have a good appreciation for strategy. Second, to the extent that 
these institutions are able to identify those individuals who are 
promising strategists, it can be an important factor in their selection 
for senior positions that require such a skill. (There is some recent 
scholarship indicating that it is possible to identify those 
individuals who have the potential to do strategy well. Interestingly, 
the skill sets that the military values in selecting officers for 
command at the tactical level of war, are not those that translate well 
into skills needed for senior rank; i.e., for officers who must weigh 
issues at the strategic level, and who are responsible for strategy 
development.)
    Do our senior military education institutions teach strategy well? 
Are they tased with identifying students who show great promise as 
strategists? Is this attribute valued by the career civil service and 
the military services when it comes to advancement and placement? These 
questions may be worth investigating. Both Rep Skelton and Rep Israel 
have a strong interest in these issues and may be worth engaging, as 
may Rep Thomberry.
    I hope this brief response proves of use to you.

                                  <all>


</pre></body></html>
